           U.S. Department of the Interior
             Office of Inspector General


               Audit Report




              Abandoned Mine Lands
         in the Department of the Interior

C-IN-MOA-0004-2007                           July 2008
                                          Table of Contents:
Results in Brief............................................................................................... 1

Background .................................................................................................... 2

Details of Audit .............................................................................................. 3

     Injuries and Deaths................................................................................... 3
     Observations and Hazards on BLM Land ................................................ 5
     Observations and Hazards on NPS Land ................................................. 9
     BLM Abandoned Mine Lands Program................................................. 11
          Field Office Management ................................................................. 11
          Staffing .............................................................................................. 12
          Program Budget and Funding ........................................................... 13
          Site Trespass ..................................................................................... 13
          Site Inventory .................................................................................... 15
     NPS Abandoned Mine Lands Program .................................................. 16
         Program Funding ............................................................................... 16

BLM and NPS Best Practices ...................................................................... 17

Conclusion ................................................................................................... 19

Recommendations ........................................................................................ 20

Appendixes
A. OIG Site Visits .................................................................................... 21
B. Objective, Scope, Methodology, and Internal Controls ...................... 27
C. Related Reports ................................................................................... 29
D. Abbreviations ...................................................................................... 31
E. OIG Analysis of BLM’s Response to Draft Report ............................ 32
F. OIG Analysis of NPS’ Response to Draft Report ............................... 36
G. Status of Recommendations ................................................................ 37
                                        RESULTS IN BRIEF

We are gravely concerned that the Department of the Interior (DOI or Department) has put the
public’s health and safety at risk by not addressing hazards posed by abandoned mines on federal
lands. Mines located primarily in the western states of California, Arizona, and Nevada have
dangerously dilapidated structures, serious environmental hazards, and gaping cavities – some
capable of swallowing an entire vehicle.

During our audit, we identified serious environmental and safety hazards where members of the
public had been killed, injured, or exposed to dangerous environmental contaminants. A number of
adults and children have fallen to their deaths over the past several decades due to hazards associated
with abandoned mines. The potential for more deaths and injuries is ominous. Growth of the
population and use of off-road vehicles in the West will increase the likelihood of additional
deaths or injuries.

We focused our audit of abandoned mines on Bureau of Land Management (BLM) and National
Park Service (NPS) lands because the majority of abandoned mines are located there. We visited
approximately 45 areas with abandoned mines from March 2007 through April 2008 and talked to
over 75 employees from 13 BLM offices and 5 national parks.

At several BLM sites we visited, we found dangerous levels of
environmental contaminants, such as arsenic, lead, and mercury
– easily accessible to visitors and local residents, often without
their knowledge. We also found instances of trespassing at
abandoned BLM mine sites, including residential and
commercial development on the land.

Even more disturbing, we found that BLM supervisors told
staff to ignore these problems, and employees were criticized
or received threats of retaliation for identifying contaminated
sites. One employee stated that adding sites to an inventory
list and declaring them unsafe was more detrimental to BLM
because doing so acknowledged a hazard and a potential
liability.                                                           Vehicle being hoisted from
                                                                     a mine shaft on BLM land.
While BLM has the clear majority of abandoned mine sites             (BLM Photo)
on DOI lands, we found that it has an ineffective program to
address them. BLM’s abandoned mines program has long been undermined, neglected, and
marginalized by poor management practices and insufficient staffing and resources.

We found that NPS has mitigated many of its high-risk, easily accessible abandoned mine sites;
however, there are hundreds, if not thousands, of sites that still need to be addressed. At one
park, the abandoned mine inventory includes over 600 sites, and NPS officials have inspected
less than half of the sites on the 1.4 million acres comprising the park. While NPS has a more
effective program, current funding for NPS’ abandoned mines program is inadequate to address
these hazards, and NPS has failed to develop a credible estimate of the total cost of mitigation.

                                                   1
We believe that working in consort, BLM and NPS would make
greater strides toward a solution for abandoned mines than doing so
independently. The agencies should explore opportunities to share
resources, expertise, and best practices to improve their programs.

While the expense of cleaning up abandoned mine sites is a concern,
with figures estimated in the billions, we believe simple precautions
can easily be taken at the most dangerous sites, including posting
warning signs and building fences. At environmentally contaminated
sites, staff can reduce air and water-borne contamination through dust
control with sprinklers and temporary covers.

The overall solution for cleaning up abandoned mines is not simple. It
calls for a complex and concerted effort on the part of the
Department, including the immediate mitigation of known                  Warning sign that could
hazardous sites, a calculated effort to identify and inventory           be used as a minimum
unknown sites, a methodical design to address abandoned mines            precaution at aband-
comprehensively, and a strategy to secure the necessary funding for      oned mine sites.
this costly endeavor.                                                    (OIG Photo)

The findings from this audit paint a picture of compelling urgency, which should trigger a swift
call to action by both the Department and Congress. We are providing recommendations
designed to help develop a comprehensive solution to this multi-faceted problem, not of DOI’s
making, but now, certainly, in the Department’s realm of responsibility.


                                      BACKGROUND

Since the 1850s, mining of hard rock minerals such as gold, silver, copper, and lead has been an
important part of the economy of the Western United States. Congress passed the General
Mining Law of 1872, which established a process to allow individuals to explore, claim, and
mine public lands containing mineral deposits. The General Mining Law required little
mitigation of physical and environmental hazards created by mining activities. In 1976, Congress
passed the Federal Land Policy Management Act that enhanced federal management of mining
activity and its safety and environmental effects. However, historical mining activity left
hundreds of thousands of unmitigated abandoned mine sites.

Within DOI, the majority of abandoned mine sites are located on lands managed by BLM,
primarily in Arizona, Nevada, and California. Typically, no mining operations have been
conducted at these sites for many years, although valid mining claims may still exist. The vast
majority of abandoned mine sites on NPS lands are located in the California desert area of the
Pacific West Region. The California desert area, specifically Death Valley National Park,
Mojave National Preserve, and Joshua Tree National Park, contains most of the mine hazards on
NPS land.



                                                2
Many abandoned mine sites present an immediate danger of physical injury or death due to open
vertical shafts and horizontal adits (entrances to a mine) and mill sites with deteriorating
buildings and equipment. Dangers include deadly gases and asphyxiation, collapsing mine walls,
explosive and toxic chemicals, and rotting structures. Physical hazards require the least funding
to fix or mitigate and the least expertise to identify and evaluate. Mitigation can range from
temporary measures including fencing and signs to more costly permanent measures, including
steel and concrete covers. The only permanent mitigation action is to fill in shafts and adits and
demolish or remove buildings and structures.

Some sites also present long-term dangers to people from exposure to piles of waste rock or mine
tailings (mine waste) containing hazardous materials such as arsenic, lead, and mercury. These
sites can cost hundreds of millions of dollars to remediate and require extensive expertise to
identify, evaluate, and mitigate. Potential sites must be sampled to identify hazardous
contamination. Mitigation can include temporary measures such as reducing air and water-borne
contamination through dust control with sprinklers and temporary covers. Other temporary
measures that can be taken to protect the public at these sites include installing fencing and signs
and taking appropriate steps to notify the public of the dangers. Permanent mitigation can
include reprocessing of mine tailings to treat contaminants, removal of materials to safer
locations, or onsite disposal in a properly designed facility. Clean-up of all significant sites with
environmental hazards will cost billions of dollars.

                                      DETAILS OF AUDIT


We visited approximately 45 areas with abandoned mines from March 2007 through April 2008
and talked to over 75 employees from 13 BLM offices and 5 national parks. We also reviewed
hundreds of pages of related documents and traveled through California, Arizona, and Nevada
for site visits and interviews. Our objective was to determine if BLM and NPS were effectively
protecting the public from physical safety and environmental hazards at abandoned hard rock
mine sites located on federal lands. The results of our audit are chronicled below.


           Injuries and Deaths


Comprehensive records of abandoned mine accidents are not
maintained by DOI or its bureaus. However, physical safety hazards
continue to result in visitor injuries and deaths. The U.S. Mine
Safety and Health Administration identified 33 abandoned mine
fatalities between 1999 and 2007 on all public and private lands in
the Western United States. We performed a limited search of
accident records and found that between 2004 and 2007, at least 12
people were killed in accidents at abandoned mines. We also               Vandalized mitigation measure at
visited six abandoned mine sites on BLM and NPS land where 7              the Keane Wonder Mine where a
deaths had occurred since 1984.                                           visitor died. (OIG Photo)


                                                 3
At the Keane Wonder Mine in Death Valley National Park, CA, a visitor fell 30 feet down a
mine shaft in 1984 and died of massive head injuries. We found that NPS’ visitor literature
advertised the abandoned site and NPS had signs directing visitors to the area, which had a
visitor parking lot. We also found that other mine openings in Death Valley National Park were
easily accessible by visitors using park roads and trails. After the death at Keane Wonder, NPS
did install a steel net across the opening, but during our visit, we noticed that the net had been
vandalized and other nearby openings had no fences or signs.

In 1991, a visitor to the Goat Basin Mine, Barstow Field
Office, CA, bypassed a fence around an open mine shaft
and attempted to lower himself into the shaft using
chains attached to the bumper of his truck. The chains
slipped and he fell 200 feet to his death. This type of site
is commonly called an “ant trap” because it has steeply
sloping sides that prevent escape if a person begins to
slide into the shaft. After the accident, BLM did install a
barbed wire fence around the shaft; however, during our
site visit, we saw only remnants of the fence and no
                                                             Open mine shaft at the Goat
warning signs. This site was not on BLM’s abandoned          Basin Mine where a visitor died.
mine inventory and was not effectively mitigated.            (OIG Photo)
According to a BLM official, there are many such
openings in the area but BLM has not inventoried these sites and has no plans to mitigate the
hazards. After our site visit, we made recommendations to BLM about the safety concerns at the
Goat Basin Mine, and BLM took immediate action and erected a fence around the opening.

In 1996, at the American Flat Mill near Virginia City,
NV, a teenager died while climbing stairs on his all-
terrain vehicle inside the structure. This extremely
dangerous, dilapidated structure, which was built in the
1920s, is easily accessible with few fences and is a
popular hang-out site for teens. While not documented, a
BLM official told us that many other serious injuries have
occurred at the site requiring flight-for-life helicopter
rescues. BLM has not permanently mitigated the site
because of concerns about the mill’s “historical value.”       American Flat Mill where teen
                                                               died riding an all-terrain vehicle.
We found that in Virginia City, NV, a local high school        (OIG Photo)
teacher and a friend were killed in 1996 after entering the
New Savage Mine. The men ignored a large “Keep Out-Bad Air” warning sign at the mine
entrance, bypassed a fence, and were asphyxiated. The site was subsequently more permanently
fenced and closed. The New Savage Mine is one of hundreds of mines near Virginia City.

In 1999, near Beatty, NV, a young girl was killed after she fell into an open mine shaft while
attending a BLM-authorized cross-country race. During the race, she wandered away from her
family and fell into the mine. During our site visit, BLM staff told us that race organizers, not

                                                 4
BLM, were responsible for safety during the race. To expedite
the mine closure, local residents back-filled the hole after the
accident.

More recently, in 2007, near BLM’s Windy Point Recreation
Area, Kingman, AZ, a young girl was killed after falling into an
open abandoned mine. The girl and her sister were riding an all-
terrain vehicle, ran off a trail, and fell into a 125-foot mine
shaft. The sister was seriously injured and spent the night in the Site near Beatty, NV, where a
mine before being rescued. The shaft is on a small privately       young girl fell to her death in
owned parcel surrounded by BLM property. BLM maintains a           an open shaft. (OIG Photo)
nearby campground and a road leading to the area where the
death occurred. A barbed-wire fence, provided by BLM, and warning signs were erected around
the abandoned mine shaft shortly after the accident.

BLM stated that “in light of the hundreds of millions of acres of public lands for which BLM is
responsible, some accidents will inevitably take place.” While this may be true, it does not
relieve BLM from responsibility for taking reasonable steps to prevent injury or death from
abandoned mine hazards, especially those hazards that are already known by BLM.

   Observations and Hazards on BLM Land

During our site visits to abandoned mines on BLM lands, we observed alarming examples of
dangerous mines that continue to pose a threat to the public and the environment. We have
highlighted the most distressing examples below.

Rand Mining District

In March and May 2007, we visited the Rand Mining District near
Ridgecrest, CA, because soil samples taken by BLM in 2006 identified
dangerous levels of arsenic contamination thousands of times higher
than Environmental Protection Agency (EPA)-recognized safe levels.
BLM had known about this potential contamination for decades but
had never taken samples to assess the danger to the public. We
confirmed these serious environmental hazards and also found
numerous physical safety hazards. These hazards were endangering the
residents of Randsburg and Red Mountain as well as thousands of off-
road vehicle recreationalists who routinely visit the area. BLM            Off-road vehicle trail
estimates that costs to mitigate environmental and safety hazards in       on contaminated
the District could exceed $170 million. Due to the potential risks to      tailings in Randsburg,
the public, we issued Flash Report No. C-IN-BLM-0012-2007,                 CA. (BLM Photo)
“Environmental, Health and Safety Issues at Bureau of Land
Management, Ridgecrest Field Office, Rand Mining District, CA.”




                                                 5
We found that arsenic contamination in the District is widespread in over 3,000 acres of mine
tailings and 500,000 tons of additional mining-related waste rock. The area’s dry climate and
winds have routinely exposed residents to arsenic-laden dust. Contaminated tailings have also
migrated onto residential properties in Red Mountain. Near Randsburg, a BLM-authorized trail
crossed a 60-acre highly contaminated mine tailings dam and was used seasonally by thousands
off-road riders as recently as April 2007.

The District includes about 480 open mine shafts and unstable
mining structures. Many of the mine shafts are located in and
around residential areas or near existing roads and trails.
Some mine shafts are extremely dangerous due to their depth
and location, and we found no fences or warning signs. A
local BLM official told us that temporary mitigation measures
could be delayed for up to a year while wildlife and
archeological surveys are conducted.

In response to our Flash Report, BLM reported that several
safety hazards had been fenced and posted with warning                Open shaft near road in Red
signs. The off-road vehicle route on the tailings dam was              Mountain, CA. (OIG Photo)
closed and an alternative route was constructed. BLM also
began a formal process to assess health risks to the public from environmental contamination at
the site. Periodic public meetings are being conducted to inform residents of BLM’s progress in
mitigating site hazards. We are encouraged by the steps being taken as a result of our Flash
Report to address hazards in the Rand Mining District. However, the disturbing fact remains that
hazards in the District were suspected or known to BLM for many years before anything was
done to evaluate and mitigate them.

American Flat Mill

In July 2007, we visited the American Flat Mill
site, located near the town of Virginia City, NV,
where a teenager died climbing the stairs on his
all-terrain vehicle. The mill is a large, two-story,
dilapidated concrete structure where ore was
processed in the 1920s using cyanide. The site is
an extremely dangerous physical safety hazard. It
is easily accessible, with few fences, and is a
popular “party” hangout for local teens. Most of
the structure has no outside walls and there are
large holes in the floors that could easily result in   Dilapidated mill building at American Flat
a serious injury or death.                              Mill. (OIG Photo)

An adjacent mill site was demolished in 2006 after a visitor sustained a serious injury due to a
fall. The potentially responsible party performed and paid for the demolition work. Concerning
the site, a BLM official said, “This is a matter of physical safety. The buildings are a public



                                                   6
nuisance and have to be dismantled. There's no reason for this to remain a potentially dangerous
site.”

To the contrary, in 2006, another BLM official was quoted in the Reno Gazette-Journal saying,
“Nothing is going to be disturbed at the older [remaining] site. People in the area have a strong
connection to it and it’s staying just as it is.”

Despite the death at the remaining mill and a history of serious site accidents, BLM has not taken
effective mitigation actions to protect the public. BLM provided various reasons for inaction,
including the site’s historical nature, local opposition to demolishing the structure, a lack of
funding to perform demolition, and difficulty in restricting site access.

Longstanding hazardous conditions and excessive delays in mitigation at the American Flat Mill
site present serious and unacceptable risks to the public health and safety.

Kingman

We visited the Kingman, AZ, BLM field office and
adjacent areas in September 2007 after two sisters
drove their all-terrain vehicle into a mineshaft over
Labor Day weekend and one was killed. The mineshaft          Mine 20 feet
was on a small, privately-owned sliver of land within        from road
BLM’s Windy Point Recreation Area. We visited the
area because the mineshaft was reported to be easily
accessible and the media reported thousands of
unmitigated mineshafts in the vicinity.

We saw no signs or warnings of abandoned mines on
our drive through Windy Point. We identified a
campground near the mine shaft and a road leading to
the site. Nearby, we observed two 100- to 200-foot
deep shafts on the side of the road that could easily
have resulted in additional deaths or injuries to hikers
or people using all-terrain vehicles, motorcycles, or
mountain bikes. One shaft was partially fenced while        Dangerous mine shaft next to BLM-
the other was not.                                          maintained road near Kingman,
                                                            AZ. This shaft was a short distance
After our visit, a BLM official told us the shaft where     from a similar hazard where a
                                                            young girl died in September 2007.
the young girl was killed had since been fenced using
                                                            (OIG Photo)
materials provided by BLM, and warning signs had
been erected.

At another mine northeast of Kingman, the COD Mine, we found physical and potential
environmental hazards. The private land owner who lived directly below the mine believed his
well water was contaminated by the COD Mine. BLM contacted the mine claimant, who owned
the mineral rights, several times in 2005 to notify him of site conditions, including abandoned

                                                  7
vehicles, theft, and vandalism, especially in dangerous areas of the property. In 2007, the
claimant tack-welded a steel plate over an 800-foot deep mine shaft. BLM inspected the site in
September 2007 and noted the reclamation (i.e. tack welding) had been completed. However,
during our site visit, the plate had been removed. This is a potentially life-threatening situation
because unknown individuals have been descending into the shaft from a dilapidated wooden
ladder.

Barstow

In August 2007, we visited the Goat Basin Mine near
Twentynine Palms, CA, on land administered by
BLM’s Barstow Field Office. Three visitors have died
in abandoned mines within the jurisdiction of this office
since 1976.

The Goat Basin Mine is identified on BLM maps, and a
road leads visitors to the site. The opening at the mine
                                                             Open mine shaft at the Goat Basin
is extremely dangerous and there was evidence that           Mine were a visitor died. (OIG Photo)
visitors were passing within feet of the opening on off-
road vehicles. The edges of the opening have eroded,
creating an “ant trap;” once a visitor goes over the edge, there is no way
to stop falling into the hole.

Little had been done to mitigate the known hazards even where visitors
had been killed. According to BLM, the area surrounding Barstow has
many similar hazardous mine openings that are easily accessible. After
we notified BLM of our observations, BLM informed us that it provided
temporary mitigation of the physical safety hazards with the installation
of fencing and warning signs at each of the sites.
                                                                               Open shaft near
Caselton Tailings                                                              Barstow. (OIG Photo)

In August and September 2007, we visited the Caselton Tailings
site. The site covers about 90 acres and is located in southeast
Nevada about 6 miles north of the town of Panaca. The site is
easily accessible from State Highway 320 and contains about 3
million cubic yards of mine tailings, or mine waste, from a nearby
abandoned mill. The tailings contain potentially dangerous levels of
heavy metals including arsenic, lead, and manganese.

Visible mine tailings have migrated down the surface of Caselton
Wash (a seasonal waterway that flows only during rains) toward
Meadow Valley Wash to within about 3 miles of the town of
Panaca and local water wells. An engineering evaluation conducted         Acidic pond at Caselton
on the Caselton tailings stated that a catastrophic release of tailings   Tailings site (OIG Photo)
could “severely and intensively impact water quality in Meadow

                                                  8
Valley Wash.” BLM has indicated to us that the risk of groundwater contamination is very small;
however, BLM has never sampled ground water at the wells downstream of the tailings.

The site includes nine ponds constructed to contain water on the tailings. BLM noted that the
pond water is acidic and contaminated and poses “a severe health threat to humans if they
consume it…and it may cause injury or death to wildlife.” The water is acidic enough to
seriously burn human skin on contact. There were off-road vehicle tracks on the tailings, and a
local resident told us the site was routinely used by off-road vehicle riders. The site also contains
a dilapidated operations area where a previous claimant left potentially dangerous abandoned
buildings, hazardous waste, and piles of drums and other debris. BLM installed some fencing
and a temporary cover over the tailings and constructed a diversion channel to minimize erosion.
However, the site is still easily accessible with only two small “No Trespassing” signs posted. A
BLM official also noted that the tailings cover needed to be replaced in the near future.

Over the last decade, BLM, with recent assistance from the DOI Office of the Solicitor, has
negotiated without success with two parties interested in reprocessing the tailings. Reprocessing
can help to reduce environmental contamination, and negotiations could provide additional
resources to further mitigate the site. BLM has stated that it has made an informed decision that
continuing with these negotiations is justified and in the best interests of the government and the
general public. Having a third party perform the work would significantly reduce the cost to the
government, currently estimated to be between $8 and $14 million if done unilaterally by BLM.
Where practical, we support these efforts. However, public safety must be the first priority and
we are concerned that the public has not been adequately protected from these environmental
hazards for over a decade while these negotiations have taken place.

     Observations and Hazards on NPS Land

During our site visits to abandoned mines on NPS lands, we observed examples of dangerous
mines as well as mitigated sites where NPS took action to protect the public. We have
highlighted examples below.

Death Valley National Park

In March and May 2007, we
visited Death Valley National
Park, CA, where a visitor died
in 1984 after falling down a
mine shaft at the Keane
Wonder Mine. The park has
numerous historical mines
within its boundaries and                                    Young boy exiting a mine adit with
encourages site visitation by                                a collapsing roof in Death Valley
                                                             National Park. (OIG Photo)
advertising on maps and
maintaining roads and trails
leading to the sites. Two of the sites we visited, the Keane Wonder Mine and the Greenwater

                                                  9
Mining District, contain extremely dangerous mine openings. At the Keane Wonder Mine, we
observed a family exploring the dangerous openings, and at one point we witnessed the family's
toddler exiting a collapsing mine opening. Subsequent to our site visit, NPS found elevated
levels of lead and mercury and stated that it was closing the site.

We noted three open mine shafts at the Greenwater Mining
District. Two of the shafts were well fenced; however, the
third was easily accessible and posed a danger to park
visitors. This shaft was several hundred feet deep and within
close proximity to an area where visitors had been camping.
A fence around this mine shaft was dilapidated and was not
effective in keeping visitors away from the “ant-trap”-like
opening.
                                                                     Visitors camp near this mine
We visited other abandoned mine land sites within Death           opening in the Greenwater
Valley where NPS mitigated hazards. Many mine openings            Mining District. (OIG Photo)
have been temporarily sealed with steel netting, while others
have more permanent closures in the form of steel gates. We also observed extensive
stabilization work that has been performed at the Skidoo Mill site, as well as several signs posted
in the area, warning the public to stay off the structure.

Grand Canyon National Park

In August 2007, we visited two abandoned mine sites located along hiking trails in the Grand
Canyon National Park, AZ. The first site we visited was the Grandview Mine, which was located
several miles into the canyon. Although it took over 3 hours to hike into this area, the trail is still
popular and is used by visitors. Both the trail and the Grandview Mine are well marked on NPS
maps. The Grandview Mine has a series of adits (horizontal mine entrances) connected by shafts.
We found no signs in the area to warn visitors of the dangers at the mine, and all mine entrances
were open to visitors.

In addition to the physical safety hazards we found at the Grandview Mine, there has been
concern about visitor safety due to high levels of radiation that have been recorded at the site.
Past assessments at the site have shown extremely high levels of radiation; however, during our
site visit, NPS measured radiation at all of the mine openings and all readings showed low levels
of radiation. We were told that the low levels may have been the result of recent weather patterns
in the area and increased air movement in the adits.

The other site we visited was the Orphan Mine located on the popular South Rim Trail. This
easily accessible site has both high levels of radiation and significant physical hazards; however,
NPS has erected a fence around the site, posted signs warning of the environmental hazards, and
diverted the trail further away than originally constructed. We see this as a successful temporary
mitigation of the site.




                                                  10
Mojave National Preserve

In April 2008, we visited several dangerous abandoned mine sites
within the Mojave National Preserve. Although several dangerous
shafts in the area had been covered or fences had been installed,
there were still many dangerous mine openings easily accessible to
the public.

At two sites, we found mine shafts on roads that were large enough
to easily swallow entire vehicles. In both cases, there were no fences
or signs warning the public of the danger. At the Gold Cycle site in
the preserve, a ladder going into the mine provided easy access to
the mine shaft. At the Johnny Shaft site, we observed that the road       Dangerous mine shaft
led directly to a mine with a 400-ft deep shaft.                          at the Johnny Shaft
                                                                          site. (OIG Photo)
At the Oro Fino site in the preserve, NPS personnel pointed out
what they considered one of the most dangerous mine hazards in the preserve. The entrance to
the mine was collapsing, the roof was caving in, and dangerous shafts inside the mine created the
risk of people falling. There was also a dilapidated ladder in an open mine shaft at this site. There
was vehicle access near the opening, and there were no signs warning the public of the dangers
or fencing to prevent access.


    BLM Abandoned Mine Lands Program


Field Office Management
Overall, we found that BLM’s abandoned mine lands program has long been neglected,
undermined, and marginalized by poor management practices. As a result, public health and
safety have been seriously compromised. The program is decentralized, giving operational
control and authority to field office managers. BLM has a national abandoned mine lands
program coordinator who has developed many policies and procedures for implementing an
effective program; however, this coordinator is rendered ineffective, as field office management
and staff often ignore the guidance. We also noted many examples of serious unmitigated
abandoned mine hazards that were tolerated because program managers discouraged identifying
and mitigating these hazards. Specifically, we found the following:

   •   Employees were discouraged from identifying abandoned mine sites. An employee was
       told by a field office manager not to identify abandoned mine sites as it got in the way of
       other land management activities. Another employee stated that putting sites on an
       inventory was more detrimental to BLM than leaving them off because listing them
       acknowledged a hazard and therefore created a potential liability.

   •   Employees were criticized or received threats of retaliation for site identification. An
       employee who told DOI officials that there were thousands of dangerous abandoned
       mines within the employee’s jurisdiction was subsequently criticized for making such a

                                                 11
       statement. Several other employees told us management made threats against their
       careers for raising these issues.

   •   A BLM Field Office Manager stated that management had never asked him to take
       samples of potentially contaminated sites.

   •   Employees did not use warning signs and fences because they considered them
       ineffective or costly to maintain.

   •   A BLM official opined that fencing a site was an acknowledgement that BLM knew
       about the site; and therefore if someone was subsequently injured at the site, BLM could
       face increased liability.

   •   BLM management did not allow an employee to formally contact a claimant about
       dangerous physical hazards at a claim site.

   •   Employees did not identify and report residential and commercial trespassing at
       dangerous BLM abandoned mine sites.

BLM is in the process of developing and implementing several new program management
initiatives that may enhance the effectiveness of the abandoned mine lands program. These
include the Fix a Shaft Today (FAST) program, National Mine Land Inventory prototype,
abandoned mine land distance learning program, and a project management handbook. We are
encouraged by these efforts.

Staffing
Mitigating BLM abandoned mine sites and making them safe for the public is often neglected
because the job is a collateral duty for field office personnel, and there are conflicts with the
BLM surface management program responsible for regulating operating mines.

Collateral Duty

According to BLM records, 107 field office employees in California, Nevada, and Arizona
charged time to the abandoned mine lands program in 2007. Because the abandoned mine lands
program is a collateral duty for most employees, the total time charged to the program for labor
accounted for only about 9 full-time employees. We found that many of these employees have
never performed simple duties such as posting warning signs and fences, let alone identifying
abandoned mine sites.

Conflicting Objectives

Many abandoned mine land field staff are funded primarily by the surface management program.
This program is responsible for implementing surface management regulations 43 CFR 3809
concerning minerals exploration and mine operations. This includes approval of proposed mining
operations, reclamation, bonding, and inspection and enforcement activities. Some BLM surface

                                                 12
managem ment personn nel (with colllateral abanddoned mine land duties) were reluctaant to mitigaate
sites becaause of poten
                      ntial conflicts with minee claimants and
                                                           a operatorrs who may oppose
                                                                                    o       such
mitigatioon. Mitigatin
                     ng abandonedd mines mayy restrict a cllaimant’s ability to minee minerals thhat
are accesssible from abandoned
                     a            m openinggs or locatedd in mine waste piles.
                                  mine

Program Budgett and Fund
                       ding
BLM doees not have a dedicated line l item ideentified in itss budget for the abandonned mine lannds
program,, and the proogram’s fundding needs reeceive little visibility.
                                                              v          Ass a result, thhe program iss not
a priorityy and has nott been allocaated sufficiennt resources to mitigate dangerous abandoned
                                                                                         a         m
                                                                                                   mine
sites.

BLM’s abandoned
         a           mine
                     m lands prrogram has been  b     chroniccally and draastically undeer-funded. Inn its
abandoneed mine land  ds strategic plan,
                                   p      BLM iddentified funnding needs of about $1330 million
through fiscal
          f     year (F
                      FY) 2013 forr high-prioriity sites. Eveen the identiffied needs arre drasticallyy
under-esttimated. We found that clean-up
                                   c         of environment
                                                 e             tal hazards inn California’s Rand Minning
District alone
         a     will coost over $1700 million, annd total costss to mitigate abandoned mine
                                                                                         m sites
bureau-wwide could ulltimately be billions of dollars.
                                                d        Currrently, BLM’s abandonedd mine landss
program receives less than $10 million
                                  m        in annnual fundingg from variouus sources inncluding
appropriaations for soil, water andd air; hazard managemennt; and resouurce restoratiion. Significcant
progress to permanen  ntly address physical saffety and enviironmental hazards
                                                                           h         at BL
                                                                                         LM abandonned
mine sitees will not bee achieved unless
                                  u       substaantial additioonal resourcees are made available.
                                                                                         a

Even witth its currentt funding, hoowever, BLM
                                             M should be more effectiive in proteccting the pubblic.
BLM couuld better use existing fuunds to identtify and evalluate abandooned mine sittes, post warrning
signs, and install fencces.

Site Trrespass
Historicaal trespass on
                      n BLM land
is knownn to exist at many
                      m
locationss throughout the West,
accordingg to a BLM official.
This tresppassing incluudes
commerccial activitiess and
residentiaal developmment on
abandoneed mine sitess on federal
land. Tw
       wo of the aban  ndoned
mine sitees we visited
                     d had
residentiaal and commmercial               Residdents and bu
                                                           usinesses in trespass in Reed Mountain n,
developmment in areass with safetyy        CA, near
                                                n    mine ta
                                                           ailings. (BLM Photo)
and potenntial environnmental
hazards. This residen ntial and com
                                  mmercial tresspass hinderrs BLM’s effforts to mitiggate sites
because ofo the regulaatory and leggal delays associated witth evicting trrespassers annd physicallyy
removingg homes and   d commerciaal facilities.


                                                    13
 Rand Mining District

 In California’s Ridgecrest Field Office, the Rand Mining District towns of Red Mountain and
 Randsburg had residential trespass issues. BLM allowed residents to purchase titles to their
 properties in 1984 and 1997. In Randsburg, land titles were conveyed with clauses requiring the
 purchasers to indemnify (hold harmless) the government against residents’ exposure to
 hazardous materials from mining and other activities. Such indemnification was required even
 though the appraiser noted that hazardous wastes were “very likely” present in the area due, in
 part, to many old mines. BLM officials did not take steps to assess the validity of the appraiser’s
 concern. In addition, BLM environmental assessments performed prior to the conveyances were
 inadequate in that they did not assess the levels of arsenic contamination.

  Virginia City, NV

 We found recent residential and commercial development at abandoned mine sites in Virginia
 City, NV, identified as public land. Virginia City has a population of about 1,100 people and is a
 major tourist attraction in the area. BLM acknowledged that ownership of the land for most of
 Virginia City is in dispute and has been since about 1860. A 1991 letter from BLM NV State
 Director to a U.S. Senator identified land title issues in Virginia City and possible options for
 resolution. However, the issue remains unresolved.

  We found commercial enterprises, including an operation that offered tours of a mill, recently
  built homes, and undeveloped residential lots offered for sale. The tour site included a large and
  dangerously dilapidated mill building and a mine adit where two residents exploring the mine in
                                                1996 were killed by suffocation. The adit has been
BLM aerial photo of Virginia City, NV,
                                                gated since that incident. Until BLM resolves the
showing public land highlighted in yellow.
                                                title disputes in Virginia City, trespass may
                                                continue on public lands that include abandoned
                                                mine sites with safety hazards and potential
                                                environmental contamination.




                                                       Long-established residential
                                                       areas in trespass.


                                                      Abandoned mine site with
                                                      more recent commercial
                                                      and residential development
                                                      in trespass.




                                                 14
Based on the existence of the Rand Mining District and Virginia
City sites, it is very possible that other similar sites exist on
public lands where safety or environmental hazards may
endanger people in trespass. In these cases, there is an increased
risk of injury or death due to safety hazards and environmental
contamination. DOI’s efforts to mitigate these sites will be more
complicated because DOI has allowed this trespassing to continue
for decades.

Site Inventory
BLM’s national abandoned mine land inventory is in poor              Lot for sale in trespass in
condition. BLM has a national inventory of about 12,000              Virginia City, NV.
abandoned mine sites included in its Abandoned Mine Module.          (OIG Photo)
The inventory must include data necessary for budget
justification and project monitoring, tracking, and management at the national level. We found
that BLM’s inventory was incomplete, inaccurate, and inconsistent. For example, much of the
data in the inventory was derived from the U.S. Bureau of Mines over 10 years ago and was
never validated by field surveys.

In addition, BLM field office abandoned mine staff are not identifying or entering known, high-
priority abandoned mine sites into the inventory database. For California, the inventory lists only
about 400 abandoned mine sites on public land while BLM estimates the California Desert
District alone has as many as 20,000 sites. We also found that many BLM field office staff keep
local lists of dangerous abandoned mine sites that are not being entered in the inventory
database.

Further, BLM developed an abandoned mine strategic plan that contains a list of approximately
200 projects identified by the state offices for short-term funding; however, this list includes
abandoned mine sites that are not in the inventory database. We found that the strategic plan
includes more comprehensive site information than that in the inventory, and the data in the plan
is more useful than the inventory for short-term planning and project management.

BLM staff also do not enter complete or consistent site data into the database needed to locate,
evaluate, monitor, and track abandoned mine hazards. When mitigation is performed at
abandoned mine sites, the data is often not entered.

Finally, we found that BLM’s abandoned mine lands program does not identify, inventory, and
mitigate hazards at sites abandoned after 1980. BLM’s abandoned mine handbook defines
abandoned mine sites as those abandoned prior to the implementation of the surface management
regulations on January 1, 1981. This definition may unduly limit site identification in that all
dangerous abandoned mine sites requiring mitigation may not be identified.

While a credible inventory of the most dangerous abandoned mine sites is needed to manage the
BLM abandoned mine lands program, a comprehensive inventory of all abandoned mine sites
may not be obtainable. Many of the existing sites are currently so remote or of minimum danger

                                                15
that they might not justify mitigation at any abandoned mine funding level. Given the limited
funds available, it is much more important that the inventory include current and credible
information that is needed for program management of significant sites.

      NPS Abandoned Mine Lands Program

During our audit, we found fewer problems within NPS’ abandoned mine lands program. We
attribute this to several factors, including the following:

   ¾ Significantly fewer abandoned mine land sites (thousands compared to hundreds of
     thousands).
   ¾ Few contaminated sites near populated areas.
   ¾ Greater control over visitor access and restricted use of off-road vehicles.
   ¾ A culture within NPS that does not hinder site identification and mitigation.

We found that Death Valley, Grand Canyon, Joshua Tree, and Lake Mead had mitigated many of
their high priority abandoned mine sites that posed the largest risks to visitors because they were
easily accessible. In many cases, these parks had taken steps to permanently seal mine openings
and stabilize mine structures. In other cases, they had taken temporary measures to install
fencing and signs to protect and warn the public of mine hazards. Although these four parks had
made progress in addressing their high-risk sites, there are hundreds of mine sites that still need
to be addressed. The parks indicated that lack of funding prevented them from addressing the
dangers at these other sites.

We found that the Mojave National Preserve had done little to mitigate abandoned mine hazards.
Mojave was established in 1994 when approximately 1.4 million acres were transferred from
BLM to NPS. At the time, the abandoned mine lands inventory included over 600 sites. These
sites required field verification. Mojave staff has inspected, evaluated, and prioritized 274 sites;
has continued to develop and refine an extensive and detailed targeted inventory of its most
dangerous sites; and has pursued project funding from the Pacific Region. However, since
Mojave was created, it has received little or no funding for site mitigation.

Program Funding
According to NPS, current funding is inadequate to address known abandoned mine issues
within parks, and the process of “budget erosion” – no fund increases coupled with rising costs –
has limited funds available for abandoned mine site mitigation. However, NPS does not have a
good estimate of the total costs necessary to mitigate abandoned mine hazards. In 1995, NPS
developed an estimate of unfunded abandoned mine land projects. This estimate totaled $165
million with immediate high risk needs of approximately $43 million. We found that NPS had
not updated this estimate and did not have a current estimate of funding needed to address
abandoned mine hazards. At the conclusion of our audit in April 2008, NPS updated this
estimate to $233 million with $60 million for immediate high risk needs. However, this estimate
simply adjusted the 1995 aggregate estimate for inflation to derive costs in 2008 dollars. This
calculation did not consider any changes in conditions that occurred since 1995 and did not

                                                16
reflect any updated inventory and risk information that could impact mitigation costs. NPS stated
that it is creating a new, more detailed and accurate database of abandoned mine sites that will
better identify specific mine features and proposed mitigation costs.

NPS’ abandoned mine lands program is funded as part of the broader NPS Disturbed Land
Restoration Program, which restores lands that have been affected by development or agriculture
back to the unimpaired natural conditions. These funds can be used to address restoration
activities resulting from camping, farming, grazing, timber harvest, or abandoned facilities such
as buildings, roads, dams, and mines. Since 2000, specific abandoned mines funding within NPS
has been inconsistent, ranging from a high of approximately $650,000 in FY 2001 to a low of
$121,000 in FY 2003. These funding issues have prevented needed mitigation of abandoned
mine hazards in Mojave and delayed mitigation of many hazards at the other four parks we
visited.

In 2008, Congress appropriated approximately $2 million to address abandoned mine hazards in
California; $600,000 was allocated to Mojave. Mojave has developed a plan to use these funds to
mitigate high priority sites.



                            BLM AND NPS BEST PRACTICES

Dedicated Abandoned Mine Land Staff

We found that the BLM Arizona State Office had responded aggressively to address the issues
identified in OIG Flash Report No. C-IN-BLM-0013-2005, “Public Safety Issues at Saginaw Hill
Property,” issued in March 2005. The office hired an abandoned mine lands program lead with
significant experience in large environmental projects and a full-time abandoned mine lands
coordinator with an environmental background who was assigned to the Phoenix District Office.
This coordinator has responsibilities for abandoned mines and hazardous materials in the 10 field
offices included in the Gila and Phoenix districts. BLM Arizona State Office officials stated that
this approach was more effective than using collateral staff.

Targeted Environmental Site Inventory

The BLM California State Office implemented a multidisciplinary team approach in the
California Desert District to identify and assess sites with serious environmental contamination.
The team uses experts from BLM offices including the California State Office, the National
Operations Center, and other agencies including the U.S. Geological Survey. The team is
targeting sites in areas where residential and commercial development is occurring or is likely to
occur in the near future. To date, the team has conducted site visits to one of the District’s five
field offices and has identified eleven sites with significant actual or suspected environmental
contamination.




                                                17
Partnerships with Other Organizations

BLM initiated the Nevada Abandoned Mine Land Environmental Taskforce in March 1999 to
address environmental hazards associated with abandoned and inactive mines in Nevada. The
taskforce includes 13 federal and state agencies that work together to (1) foster regulatory
cooperation, (2) identify priority sites for cleanup, and (3) provide administrative oversight for
funded projects. The taskforce allows several agencies to leverage their funding cooperatively to
mitigate abandoned mine hazards.

In September 2007, a joint BLM and U.S. Forest Service report was issued titled, “Abandoned
Mine Lands: A Decade of Progress Reclaiming Hardrock Mines.” The report addresses
collaborative progress made in protecting and remediating three western watersheds and other
environmental and physical safety hazards. Additionally, the report addresses future planned
efforts to enhance site inventories, leverage resources, and share technological innovations. We
believe this collaborative effort is another example of successful partnerships being utilized by
BLM.

The Desert Manager's Group (http://www.dmg.gov) is a regional interagency partnership among
federal, state, and local entities that manage California's 20-million-acre desert region. The desert
region includes three national parks, 72 wilderness areas, and six military bases and has a large
portion of the abandoned mine sites that are located in the Southwest. The Desert Manager's
Group has recently kicked off a 5-year effort to form partnerships to leverage funding and
mitigate the highest priority abandoned mine sites in the California Desert Region.

In 2006, the Desert Manager's Group began developing the list of abandoned mine sites in the
desert region, identifying the capabilities of the different agencies within the Desert Manager's
Group and prioritizing the mitigation of abandoned mine sites. The Desert Manager's Group’s
latest 5-Year Plan for FY 2007 through FY 2011 identifies goals to (1) form partnerships to
leverage funding, (2) develop a central database of abandoned mine sites within the desert
region, and (3) mitigate the highest priority environmental and physical safety sites.

This collaborative effort among agencies such as BLM, NPS, the Department of Defense, and
the State of California could provide a benchmark for maximizing efficiency in mitigating
abandoned mine sites.

Prefabricated Materials for Mitigation

At Joshua Tree National Park, NPS has the capabilities to
mass produce prefabricated mine covers and gates. This
enables a large number of sites to be mitigated economically
and efficiently. We believe this approach is a good model
that could be expanded within NPS and adopted by BLM.
                                                                  NPS personnel from Joshua
                                                                  Tree National Park installing a
                                                                  prefabricated cover at Lake
                                                                  Mead. (OIG Photo)


                                                 18
Utilizing Volunteers to Address Abandoned Mine Issues

We learned that volunteers assist NPS and BLM in identifying and inventorying abandoned mine
sites. For example, at Joshua Tree National Park, a retired sheriff helps locate and map
abandoned mine sites within the park.

In Nevada, BLM is supported by the state’s Division of Minerals, which uses college students to
identify and inventory abandoned mine features. BLM has also developed a grassroots effort to
mitigate physical hazards using volunteer labor and donated fuel, heavy equipment, and
materials.

We believe using volunteers can be beneficial if they are properly trained and supervised.

Site Closures

In August 2006, BLM closed several environmentally contaminated abandoned mine land sites
in California to protect the public. These closures included public lands at the Pond, Poore, Gold
Run, Poison Lake, Davis, and Longfellow sites located in the California counties of Amador,
Placer, Nevada, and Tuolumne. The closure included “all forms of entry by the public, including
mineral access,” and facilitated environmental remediation actions. We believe site closures
could be used more often to protect the public.


                                       CONCLUSION


As it stands, public safety is at risk because physical and environmental hazards at abandoned
mine lands have been ignored by DOI for decades. Abandoned mine lands programs in DOI are
in need of a firm commitment to protect the public, sustained funding, and dedicated staff.




                                                19
                                 RECOMMENDATIONS


This report makes 8 recommendations that, if implemented, should help the bureaus address
these long-standing issues.

We recommend that the BLM Director do the following:

   1. Issue a clear policy statement that:

          •   Supports the abandoned mine lands program and its goals.
          •   Forbids retaliation against employees for identifying or reporting abandoned mine
              sites.
          •   Requires field-office management and staff to comply with all abandoned mine
              lands policies and procedures.

   2. Employ experienced, trained, full-time staff dedicated to the abandoned mine lands
      program at the state- and field-office levels in California, Arizona, and Nevada and other
      states where appropriate.

   3. Establish a specific line item in the budget for the abandoned mine lands program and
      request funding to accomplish project goals identified in the abandoned mine strategic
      plan.

   4. Identify and resolve trespassing on abandoned mine sites and assess and mitigate hazards
      associated with these sites.

   5. Validate existing inventory data and develop procedures for ongoing data collection to
      ensure that data in the inventory is complete, accurate, and consistent.

We recommend that the NPS Director do the following:

   6. Request adequate funding to support program goals and to mitigate sites identified by the
      abandoned mine lands program.

We recommend that the BLM Director and NPS Director do the following:

   7. Implement immediate temporary or permanent measures to mitigate known dangerous
      sites, including those identified in Appendix A of this report.

   8. Explore and exploit opportunities for sharing resources, expertise, and best practices
      between the agencies to strengthen their abandoned mine lands programs.




                                               20
             Appendix A - OIG SITE VISITS - California



Rand Mining District (Red Mountain, Randsburg)
  ¾ Environmental contamination
  ¾ Safety hazards due to deteriorating structures and open shafts
  ¾ Inadequate fencing and signs
  ¾ Claimant negotiations could impact mitigation
  ¾ Land conveyances could present liability




Ruth Mine
   ¾ Open adit
   ¾ Deteriorating structures
   ¾ Inadequate signs
   ¾ Recent trespass in residence
   ¾ Erosion of tailings into streambed


El Paso Mountains
    ¾ Safety hazards due to “Adopt a cabin” program where active claim and many open
      shafts/adits exist adjacent to cabins used by visitors



Rademacher Hills
  ¾ Open adits and shafts
  ¾ Inadequate fencing and signs



Folsom Area (You Bet Mine, Upper You Bet Sluice Tunnel, Boston Tunnel, Starr Pit,
Green Creek, Davis Stamp Mill, Kenebec Shaft, and the South Yuba River Campground)
   ¾ Open shaft near campground
   ¾ Inadequate fencing and signs




                                           21
       Appendix A - OIG SITE VISITS – California (cont.)


Barstow - Coolgardie
   ¾ Open shafts
   ¾ Minimal fencing
   ¾ No signs


Barstow - Goat Basin
   ¾ Death at one site, not fenced, not on inventory
   ¾ Two deaths at another site a short distance away
   ¾ A fence had been put up around the hole many years ago, but remnants remained when
      we visited
   ¾ A new fence was erected as a result of our Notice of Proposed Findings and
      Recommendations.
   ¾ Other dangerous openings in the area that were not mitigated and not on the inventory
   ¾ This site had a death and should have been a high priority, but it was not even on the
      inventory



Darwin
  ¾ Safety hazards due to deteriorating mill
  ¾ Inadequate sampling to assess environmental hazards



Spangler
  ¾ Open adits and shafts
  ¾ Inadequate fencing and signs
  ¾ Public invited to off-road vehicle events


Death Valley National Park
  ¾ Death at one site (Keane Wonder)
  ¾ Open adits and shafts
  ¾ Public invited to visit site
  ¾ Inadequate fencing and signs



Rosamond Area (Tropico, Cactus and Golden Queen mines)
   ¾ Environmental contamination of BLM land
   ¾ Growing urban interface near contaminated sites


                                             22
       Appendix A- OIG SITE VISITS – California (cont.)



Joshua Tree National Park
   ¾ Open shaft, compromised adits. The most dangerous site we saw. Was difficult to get
     to but does receive visitors.
   ¾ The high priority sites we visited are scheduled to be mitigated in 2008.
   ¾ A Park-wide environmental inspection of inactive historical mill sites was performed
     with no significant findings.



Mojave National Preserve
  ¾ Open shafts near roads
  ¾ Few fences or warning signs




                                           23
              Appendix A - OIG SITE VISITS – Nevada


Virginia City
   ¾ Two deaths in adit
   ¾ Safety hazards at mill tour business
   ¾ Inadequate sampling to assess environmental hazards
   ¾ New commercial and residential trespass



American Flat
  ¾ Death in mill building
  ¾ Safety hazards due to deteriorating structure
  ¾ Unrestricted access
  ¾ Inadequate warning signs



Caselton
  ¾ Inadequate groundwater sampling to assess environmental hazards
  ¾ Unrestricted access
  ¾ Inadequate warning signs
  ¾ Claimant dump site
  ¾ Claimant negotiations may hinder mitigation



Spruce Mountain
   ¾ Deteriorating structures
   ¾ Open adit



Tuscarora
   ¾ Safety hazards due to illegal dumping




                                          24
        Appendix A - OIG SITE VISITS – Nevada (cont.)



Tonopah
   ¾ Death in open shaft
   ¾ Lack of responsibility for abandoned mine lands assumed by local office. Local
     office stated that it was not its responsibility and that a race organizer was
     responsible for the accident.
   ¾ Local residents backfilled the mine shaft after the accident.



Lake Mead National Recreation Area
   ¾ Death at one site, but site was backfilled many years ago.
   ¾ LMNRA does not have a complete inventory.
   ¾ There have been many sites that have been mitigated.
   ¾ Teamed up with Joshua Tree to mitigate sites.




Cherry Creek
  ¾ Lack of recognition that King Midas mill may be on BLM land.



 Ward
   ¾ Accessible adits




                                          25
         Appendix A (cont.) - OIG SITE VISITS - Arizona


Kingman Area (Windy Point Recreation Area, Antler Mine, Boriana Mine, COD Mine,
Thumb Mine)
   ¾ Death on patented land near BLM road
   ¾ Open shafts
   ¾ Dangerous physical hazards on patented land
   ¾ Inadequate fencing and signs
   ¾ Inadequate sampling to assess potential environmental hazards (Boriana)
   ¾ Inadequate funding to mitigate known environmental projects (Antler)
   ¾ Lack of communication between district and field
   ¾ Lack of coordination between field and state



Wickenburg
   ¾ Unrestricted access
   ¾ Inadequate fencing and signs



Octave
  ¾ Inadequate sampling to assess environmental hazards



Vulture
   ¾ Inadequate fencing and signs



Quartzsite
  ¾ Safety hazards due to deteriorating structures
  ¾ Inadequate sampling to assess environmental hazards



Grand Canyon National Park
   ¾ Safety hazards due to accessible mine with high radon levels
   ¾ Two sites visited
   ¾ For the Orphan Mine, the trail was diverted around the contaminated areas. The site
     was fenced and signs were posted. However, visitors could still get in through a
     hole in the fence.
   ¾ The other site (Grandview) had no fencing or warning signs but was relatively
     difficult to get to. However, hikers in the area are using the mine features as shelter.



                                             26
  Appendix B - Objective, Scope, Methodology, and Internal
                           Controls




Audit Objective:
To determine if the Department of the Interior and its bureaus are effectively
protecting the public from physical safety and environmental hazards at abandoned
hardrock mine sites located on federal lands.

Audit Scope:
Our audit focused on abandoned hardrock mine lands on federal property in the
Western United States. We concentrated on lands in California, Nevada, and Arizona,
three states with a significant mining legacy that receive no funds collected for
reclamation of abandoned mines under the Surface Mining Control and Reclamation
Act. This Act primarily supports reclamation of abandoned coal mines. In addition,
population growth and wider recreational use of federal land in these states are
increasing the risks from abandoned mine hazards. After reviewing abandoned mine
issues and inventories for NPS, BLM, the U.S. Fish and Wildlife Service, and the
Bureau of Indian Affairs, we limited our field work to lands managed by NPS and
BLM. We also evaluated departmental programs and efforts to deal with abandoned
mine lands.
Audit Methodology:
We conducted our audit between March 2007 and April 2008. To accomplish the
audit objective, we:
     ¾ Conducted the audit in accordance with Government Auditing Standards issued
       by the Comptroller of the United States.
     ¾ Included tests of records and other audit procedures that were considered necessary.
     ¾ Gained an understanding of applicable laws and regulations and the
       Department’s and bureaus’ abandoned mine lands programs.
     ¾ Conducted a limited review of data to identify accidents resulting in fatalities
       or injuries at abandoned mine lands sites.
     ¾ Reviewed Department, bureau, and other systems used to report accidents at
       abandoned mine lands sites resulting in fatalities or injuries.
     ¾ Analyzed management processes for identifying, reporting, prioritizing, and
       mitigating physical safety and environmental hazards at abandoned mine lands sites.
     ¾ Interviewed departmental and bureau officials at the headquarters, regional,
       and field office levels.
     ¾ Visited selected bureau offices to review records and abandoned mine lands sites to
       assess the nature of safety and environmental hazards. We selected sites based on
       knowledge gained from bureau officials, prior accident locations, and priority of
       hazards as identified in bureau plans or by bureau officials.
     ¾ Identified best practices within bureaus and from outside entities for mitigation
       of abandoned mine lands hazards.


                                            27
   Appendix B (cont.) - Objective, Scope, Methodology, and
                        Internal Controls



Internal Controls:
As part of the audit, we performed an evaluation of the Department and its bureaus’
systems of internal controls related to the identification, prioritization, and mitigation
of abandoned mine lands hazards. We did not assess the bureaus’ internal controls
applicable to financial reporting.

This evaluation of internal controls was conducted at departmental and bureau offices
to the extent we considered necessary to accomplish the audit objective. We concluded
that the BLM abandoned mine lands program lacks adequate internal controls to
identify, prioritize, and mitigate abandoned mine hazards. These deficiencies are
discussed in the “Results of Audit” section of the report. NPS generally had adequate
internal controls.

We reviewed the Department of the Interior’s Performance and Accountability Reports
(PAR) for fiscal years 2006 and 2007 and noted that no material weaknesses were
reported related to abandoned hard rock mines. Some Government Performance and
Results Act goals in the 2007 Performance and Accountability Report did relate to the
possible effects of abandoned hard rock mines (e.g., number of visitor injuries and
fatalities, percent of physical and chemical hazards mitigated to protect public health
and safety, and percent of contaminated sites remediated to protect watersheds) but
were not specifically related to such sites. As reported in the PAR, all of these goals
were met in 2007.

Our recommendations, if implemented, should improve the internal controls in the
areas with identified weaknesses.




                                             28
                      Appendix C - Related Reports



OIG Flash Report No C-IN-BML-0012-2007
Environmental and Safety Issues at Bureau of Land Management Ridgecrest Field Office,
Rand Mining District, September 2007.
The OIG noted hazardous conditions at abandoned mine sites in California’s Rand Mining
District that required immediate action to protect the health and safety of the public and
employees. Levels of arsenic thousands of times higher than safe levels were found in
tailings piles located near residential properties. The cost of environmental site mitigation
could exceed $170 million.



OIG Flash Report No. C-IN-BLM-0013-2005
Public Safety Issues at Saginaw Hill Property, Bureau of Land Management, March 2005.
The OIG found that BLM had not identified the abandoned hard rock mine safety hazards
and environmental contaminants present at the Saginaw Hill property in Arizona. In
addition, BLM had not taken appropriate measures to mitigate or remediate the hazards or
limit public access to the hazards at this site.



GAO Report No. 05-377
Hardrock Mining: BLM Needs to Better Manage Financial Assurances to Guarantee
Coverage of Reclamation Costs, June 2005.
The report concluded that the financial assurances may not fully cover all future
reclamation costs as 48 hard rock operations on BLM land had not been fully and
adequately reclaimed by operators. The report also found that BLM’s LR2000, the system
designated to manage BLM’s financial assurances, was inadequate.




                                              29
              Appendix C (cont.) - Related Reports


GAO Report 96-30
Information on Efforts to Inventory Abandoned Hard Rock Mines, February 1996.
The report identified no definitive inventory available to identify the number of abandoned
hard rock mines located on federal lands. Four major federal land-managing agencies, the
BLM, NPS, the U.S. Fish and Wildlife Service, and the U.S. Forest Service were in
various stages of inventorying the mine sites on the lands they manage; however, because
the methodologies and assumptions used to develop their inventories differ, their results
could not be meaningfully compared or combined. As a result, neither the number of sites
identified, the physical/environmental hazards reported, nor the cost of remediation
associated with each hazard could be presented as a consistent total for abandoned mine
lands on federal property. Therefore, the potential harms and damage caused from
abandoned mine lands, on federal property, remained difficult to assess and quantify.



OIG Report No. 92-I-636
Hardrock Mining Site Reclamation, Bureau of Land Management, March 1992.
The OIG identified that BLM had not implemented procedures for ensuring that abandoned
hard rock mining sites on BLM managed lands were being reclaimed. BLM also failed to
develop a comprehensive inventory of hard rock mining sites that required timely
reclamation, and BLM was not fully aware of hazards and dangerous conditions at some
abandoned mining sites.




                                            30
                Appendix D- Abbreviations



BLM……………………………………………… Bureau of Land Management
CFR………………………………………………. Code of Federal Regulations
Department and DOI……………………………… Department of the Interior
FY………………………………………………… Fiscal Year
NPS………………………………………………. National Park Service
OIG………………………………………………. Office of Inspector General




                             31
      Appendix E- OIG Analysis of BLM’s Response to Draft Report


               BLM Response                                                    OIG Analysis
Recommendations
                                                            We are encouraged that BLM is committed to
BLM stated that it accepted all of the                      implementing the recommendations provided in our
recommendations and would work diligently to                report. However, BLM did not provide the detailed
implement them.                                             information requested on actions taken or planned to
                                                            implement the recommendations, including target dates
                                                            and the names of officials responsible for their
                                                            implementation.

Conclusions Concerning Overall AML
Program
                                                            After considering BLM’s comments, we stand by our
BLM was concerned with the “broad assertion” made           conclusions concerning the abandoned mine lands
in the draft audit report that BLM has an ineffective       program. While we agree that BLM has taken steps to
abandoned mine lands program and that the program           address some hazards within its budget constraints, we
has been undermined, neglected and marginalized.            are concerned about the large number of unmitigated
BLM felt that the audit focused on some “mega-              sites that still exist and pose risk to the public. Even
AML” sites and hazardous materials sites that had           more disturbing, we found that BLM supervisors told
not been addressed as quickly as BLM would have             staff to ignore these problems, and employees were
liked because the resources needed to address them          criticized or received threats of retaliation for identifying
exceed available funding. BLM agreed with the               contaminated sites.
conclusion, however, that the program has been
underfunded.                                                We continue to conclude that BLM has put the public’s
                                                            health and safety at risk, based on our site visits to about
BLM stated that it did not agree with our conclusion        40 abandoned mine sites in California, Nevada and
that the abandoned mine lands program has put the           Arizona. These visits included large contaminated mine
public’s health and safety at risk. BLM stated that it      sites as well as areas with numerous physical safety
has undertaken temporary or interim measures to             hazards. The Rand Mining District is just one example.
mitigate health and safety hazards while seeking            In this district, residents and off-road vehicle
additional funding to complete the needed                   recreationalists were routinely exposed to high levels of
remediation.                                                arsenic and the district is littered with open mine shafts
                                                            and other physical hazards that had not been mitigated.
BLM discussed several new initiatives that it is
pursuing at the national level including the Fix a          We are encouraged by the new initiatives that BLM is
Shaft Today (FAST) program, National Mine Land              pursuing. Most of these initiatives were new and not
Inventory prototype, Inventory Project Change               fully implemented at the time of our audit.
Board, AML Distance Learning and the Project
Management Handbook.


Injuries and Deaths

BLM took exception to our statement that                    We stand by our conclusion concerning the lack of
“comprehensive records of abandoned mine                    records on abandoned mine accidents. BLM was unable
accidents are not maintained,” stating that BLM is          to provide us with data on such accidents. While we
not always notified immediately when a death or             agree that BLM will not be able to prevent all accidents,
injury takes place on public land. BLM stated that          this fact does not relieve BLM from responsibility for
when notified, it responds by verifying the location        taking reasonable steps to prevent injury or death from
of the incident and assessing the site for emergency        abandoned mine hazards, especially those hazards that

                                                       32
                BLM Response                                                      OIG Analysis
action. BLM also expressed concern that our                    are already known by BLM to exist. During our site
including examples of abandoned mine accidents                 visits, we observed numerous physical hazards that BLM
inappropriately suggested that BLM failed to address           had failed to implement even the most basic precautions,
physical safety hazards on public lands. BLM                   such as fences and signs.
insisted that it has an active program to identify and
address such hazards. Finally, BLM stated that some
accidents will inevitably take place in light of the
hundreds of millions of acres of lands for which
BLM is responsible.


Observations and Hazards on BLM Land

BLM provided additional information regarding                  We made changes to the report to address the
actions that it has taken at four sites included in our        clarifications provided by BLM and to provide
report:                                                        information on additional actions taken by BLM to
                                                               address hazards.
      •    Rand Mining District: Provided additional
           details on work that has been                       Where practical, we support efforts to negotiate with
           accomplished, including actions taken as a          third parties to participate in the mitigation of abandoned
           result of our Flash Report, “Environmental,         mine sites. However, public safety must be the first
           Health and Safety Issues at Bureau of Land          priority and we are concerned that the public has not
           Management, Ridgecrest Field Office,                been adequately protected from the environmental
           Rand Mining District, CA.”                          hazards associated with the Caselton tailings for over a
                                                               decade while these negotiations have taken place.
      •    American Flat Mill: Clarified facts                 Concerning the operations area at the Caselton tailings,
           surrounding the demolition of one structure         we observed unlabeled barrels of unknown materials that
           and reiterated the strong local resistance to       had been abandoned and remained on the property. We
           the demolition of the remaining structure.          also noted numerous physical safety hazards.

      •    Barstow: Described actions taken to                 An engineering evaluation conducted on the Caselton
           address hazards that OIG notified BLM of            tailings stated that a catastrophic release of tailings could
           during the audit.                                   “severely and intensively impact water quality in
                                                               Meadow Valley Wash.” BLM has indicated to us that the
      •    Caselton Tailings. Clarified facts                  risk of groundwater contamination is very small;
           surrounding the expenditures for                    however, BLM has never sampled groundwater at the
           constructing a diversion channel and                wells downstream of the tailings.
           concerning the negotiations for
           reprocessing of the tailings piles. BLM
           asserted that the negotiations were in the
           best interest of the government and the
           public. Having a third party perform the
           work would significantly reduce the cost to
           the government, currently estimated to be
           between $8 -14 million if done unilaterally
           by BLM. BLM stated that it had removed
           all hazardous materials and resolved all
           chemical and physical safety issues at the
           “dilapidated operations area.”
           Additionally, BLM stated that its scientists
           concluded that the risk of groundwater
           contamination was very small.




                                                          33
                BLM Response                                                  OIG Analysis
Field Office Management
                                                            We agree that given the decentralization, the success of
BLM acknowledged that, as with almost all BLM               the program rests with the field offices. We concluded
programs, the abandoned mine lands program has              that many field offices are not succeeding based on our
been decentralized to the field office level.               interviews of approximately 65 BLM employees and
Accordingly, the success or failure of the program          questionnaire responses from almost all remaining BLM
rests in a large part on the efforts of the Field Office    employees with significant abandoned mine lands
and Field Office Manager. BLM reasoned that                 responsibilities in California, Arizona, and Nevada.
because there are well over 12,000 abandoned mine           These states have more abandoned mine sites than the
sites in the inventory database, then the vast majority     other western states combined. Our audit highlighted
of program managers and staff must be reporting             many examples of serious unmitigated abandoned mine
abandoned mine sites. BLM expressed concern that            hazards that were tolerated because program managers
our observations at specific sites were not                 discouraged identifying and mitigating these hazards.
representative of BLM’s program as a whole and that         We disagree with BLM’s assertion that program
some of the statements we quoted were taken out of          managers and staff must be reporting sites since there are
context or misinterpreted. BLM stated that threats          over 12,000 abandoned mine sites in the inventory. We
and intimidation of its employees will not be               found that many of the sites listed in the database were
condoned or tolerated and when it is made aware of          obtained from old Bureau of Mines data that was never
these allegations, it will act to investigate and address   verified by site visits. We found that many abandoned
the matter.                                                 mine lands site coordinators had never used the database
                                                            to enter or modify site information.


Staffing
BLM acknowledged that staff are assigned                    Employing experienced, trained, full-time staff dedicated
abandoned mine lands as a collateral duty and that          to the abandoned mine lands program should improve
they have multiple and sometimes conflicting goals          performance and minimize the conflicting goals and
and objectives. BLM stated that it understood our           objectives.
concern that it use dedicated, full-time staff to deal
with abandoned mines and that it would follow
through on the staffing recommendations made in the
report.

Program Budget and Funding
BLM acknowledged that current funding sources,              Establishing a specific line item in the budget for the
even in the aggregate, are insufficient to address the      abandoned mine lands program and requesting funding
“mega-AML” sites identified in the report. BLM              to accomplish project goals identified in the abandoned
stated that it will follow through on the                   mine strategic plan should strengthen the program. We
recommendations regarding program budgeting. The            revised the report to identify the various sources of
response provided additional details on the multiple        funding that were used for the abandoned mine lands
sources of funding that are used for abandoned              program.
mines, including funds appropriated for:

    •    Soil, Water, and Air
    •    Hazard Management and Resource
         Restoration
    •    Central Hazardous Materials Fund
    •    Natural Resource Damage Assessment and
         Restoration
    •    Southern Nevada Public Land Management
         Act


                                                       34
               BLM Response                                                  OIG Analysis
Site Trespass
BLM stated that the occupancy and commercial              Our report discusses the issues associated with
trespass on BLM lands is a law enforcement and land       occupancy and commercial trespass on BLM lands that
and realty issue that cannot be resolved by the           have abandoned mines and the added risks associated
abandoned mine lands program. BLM acknowledged            with that trespass. We agree that the trespass issues are
that the land for most of the town of Virginia City,      outside the control of the abandoned mine lands
Nevada, is under dispute. BLM stated that survey          program. Our recommendations are addressed to the
work was not done in areas we visited in Virginia         Director, BLM who also has oversight of the BLM law
City and it is not known whether trespass is              enforcement and land realty programs.
occurring.
                                                          Concerning Virginia City, we amended the report to
                                                          emphasize the disputed ownership of the land and the
                                                          fact that BLM has not determined where trespassing is
                                                          occurring.
Site Inventory
BLM acknowledged that the inventory system is a           A credible inventory of the most dangerous abandoned
known problem and that populating the database has        mine sites is needed to manage the BLM abandoned
not been a priority of the field office staff. Many       mine lands program and to support funding requests to
field offices have their own lists of sites or “cuff      mitigate the hazards.
records.”

Best Practices
BLM provided additional information concerning            Despite the problems that we noted in our audit, we did
several of the best practices that we noted in our        find best practices that BLM should consider for wider
report.                                                   implementation.

Appendix A
BLM clarified information concerning several sites        We evaluated the information and made changes to the
included in Appendix A to the report. In some cases,      Appendix as we saw necessary. The sites described in
BLM noted that the identified hazards were actually       the Appendix were all on public land according to BLM
on private lands.                                         field office personnel.




                                                     35
        Appendix F- OIG Analysis of NPS’ Response to Draft Report



                  NPS Response                                                     OIG Analysis
Findings and Recommendations

NPS stated that it accepted the findings and                      We are encouraged that NPS is committed to
recommendations in the report. While NPS has mitigated            implementing the recommendations provided in our
many of its high-risk, easily accessible abandoned mine           report. However, NPS did not provide the detailed
sites, it agrees that a substantial workload remains to           information requested on actions taken or planned to
address hazards and reclamation issues associated with            implement the recommendations, including target dates
abandoned mines in parks.                                         and the names of officials responsible for their
                                                                  implementation.

Observations and Hazards on NPS Land
NPS generally agreed with our observations at the parks           We considered the additional information provided and
we visited. However, the response provided additional             made revisions to the report where we considered
information concerning the abandoned mine programs at             necessary.
the parks and additional actions that the parks have taken
to address the hazards that we observed.

Program Funding

NPS disagreed with our conclusion that it did not have a          We were aware of the 1995 estimate, however, we
current estimate of the total costs needed to mitigate its        found during our audit that NPS had not updated this
abandoned mine hazards. It stated that it performed a             estimate or reestimated the costs since 1995. In April
detailed analysis in February 2005 which reported                 2008, near the completion of our audit, NPS prepared
estimated total costs of $165 million with immediate              the new estimate. However, this estimate simply
needs of $43 million. NPS referred to an April 2008               adjusted the 1995 aggregate estimate for inflation to
estimate as a current estimate that quotes total needs of         derive costs in 2008 dollars. This calculation did not
$233 million with immediate needs of $60 million.                 consider any changes in conditions that occurred since
                                                                  1995 and did not reflect any updated inventory and risk
                                                                  information that could impact mitigation costs. Because
                                                                  this estimate does not reflect the current inventory of
                                                                  abandoned mine hazards, we do not consider it to be a
                                                                  credible estimate of NPS’ needs. NPS stated that it is
                                                                  creating a new, more detailed and accurate database of
                                                                  abandoned mine sites that will better identify specific
                                                                  mine features and proposed mitigation costs.


Other Comments

NPS comments included a number of clarifications                  We considered the additional information provided and
concerning its abandoned mine program as well as                  made revisions to the report where we considered
recommended report wording changes. Additionally, the             necessary.
response provided more detailed information concerning
its program for our consideration.




                                                             36
                 Appendix G – Status of Recommendation

Recommendations               Status                     Action Required

   1 through 5      Unresolved                  BLM should provide additional
                                                information on actions taken or
                    BLM concurred, additional   planned, including target dates and
                    information needed          titles of officials responsible for
                                                implementation.


       6            Unresolved                  NPS should provide information on
                                                actions taken or planned, including
                    NPS concurred, additional   target dates and titles of officials
                    information needed          responsible for implementation.


   7 through 8      Unresolved                  BLM and NPS should provide
                                                additional information on actions taken
                    BLM concurred, additional   or planned, including target dates and
                    information needed          titles of officials responsible for
                                                implementation.
                    NPS concurred, additional
                    information needed




                                         37
    Report Fraud, Waste, Abuse
       And Mismanagement
                  Fraud, waste, and abuse in
               government concerns everyone:
              Office of Inspector General staff,
              Departmental employees, and the
             general public. We actively solicit
              allegations of any inefficient and
             wasteful practices, fraud, and abuse
           related to Departmental or Insular area
          programs and operations. You can report
              allegations to us in several ways.



By Mail:               U.S. Department of the Interior
                       Office of Inspector General
                       Mail Stop 4428 MIB
                       1849 C Street, NW
                       Washington, D.C. 20240
                       24-Hour Toll Free 800-424-5081
By Phone:
                       Washington Metro Area 703-487-
                       5435
By Fax:                703-487-5402

By Internet:           www.doioig.gov

                                                     Revised 07/07




                            38
